                                                                   NAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                            CLOSEOUT MEMORANDUM




             On 1 August 2003, a memo titled "Status of Management Controls in the Directorate for
             Engineering an Identification of Management Challenges" advised that the Division of
             Administrative Services (DAS) was investigating fraudulent charges on a 'credit card.

              Our office contacted 2, Section Head, DAS procurement section to inquire about the information
              in the above referenced memo. The Section Head explained that the situation was not a case of
             'employee or cardholder fraud. The fraud referenced in the memo involved a series of
             I

              unauthorized charges made by the vendor, not the cardholder. According to the Section Head,
              Bank of America was advised of the error and credited the account.

                 On 17 September, I spoke with the cardholder, 3, regarding the unauthorized use of her
         I       government purchase credit card. The cardholder explained that the front office had requested
                 the use of her government credit card for the purpose of ordering equipment for the new
                 Assistant ~ i r e c t o r ~
                                           The
                                             . cardholder stated that her credit card statement had charges from the
                 vendor, for additional items. The cardholder identified the inappropriate charges and'notified
                 Bank of America and 6the contract Specialist, Division of Administrative Services of the charges.
        :         The cardholder followed Bank of America's instructions and completed an affidavit identifying
                 the erroneous charges. According to the cardholder, Bank of America credited all of the
                 erroneous charges.

           The cardholder advised that it was later determined that some of the charges posted to the
         , cardholder's government credit card belonged to7anotherDirectorate within the National Science
           Foundation (NSF). The cardholder speculated that the vendor had kept her card number on file
           and was using it with all NSF orders rather than charging the appropriate directorate. The
        , cardholder explained that the situation had been corrected and the card remained free of
           erroneous charges since this incident on May 2003.



                 ' Footnote redacted
                 2
                     Footnote redacted
    I                Footnote redacted
                     Footnote redacted
                     Footnote redacted
                     Footnote redacted
I                '   Footnote redacted




Sign / date
                                         Investigator
                                                        I
                                                               Attorney
                                                                           I
                                                                                   Supervisor
                                                                                                   I
                                                                                                                AIGI
                                                                                                                            I
                                                                                                  NSF OIG Form 2 (1 1/02)
                                  CLOSEOUT MEMORANDUM




The cardholder provided me with copies of all of the paperwork regarding this incident.
Accordingly, this case is closed.
